   September 29, 2006




Financial Management
Management of the Purchase Card
Program at the North American
Aerospace Defense Command and
United States Northern Command
(D-2006-124)




                   Department of Defense
                  Office of Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AFI                   Air Force Instruction
A/OPC                 Agency/Organization Program Coordinator
GAO                   Government Accountability Office
GPC                   Government Purchase Card
NORAD                 North American Aerospace Defense Command
ORF                   Official Representation Funds
US NORTHCOM           United States Northern Command
                Department of Defense Office of Inspector General
Report No. D-2006-124                                                    September 29,2006
   (Project No. D2005-DOOOFD-0182.000)

              Management o f the Purchase Card Program at the
               North American Aerospace Defense Command
                   and United States Northern Command

                                  Executive Summary

Who Should Read This Report and Why? DoD civilian and militay personnel who
arc authorizctl to use a Govcin~ncntpurch;~sccard or supcrvisc any aspcct ol'thc
Govcrti~iicntI'urclinsc Card I'rogram shoultl rc;ltl this report. This rcport tliscusscs thc
internal controls and the management of the Government purchase card at North
American Aerospace Defense Command (NORAD) and the United States Northern
Command (US NORTHCOM).
Background. NORAD is a bi-national military organization established in 1958. DoD
established US NORTHCOM in 2002 to consolidate under a single unified command
existing missions that were previously executed by other military organizations. Both
organizations have the same commander. From October 1,2003, through March 31,
2005,205 Government purchase card holders at NORAD and US NORTHCOM
expended $5.17 million with 12,344 transactions. Oversight of the NORADKJS
NORTHCOM Government Purchase Card Program is conducted by the Air Force agency
program coordinator of the 21" Contracting Squadron. The Government Purchase Card
Program at NORADIUS NORTHCOM has not been subject to prior external audits.
Public Law 107-314, Section 1007(a) (8) (A), "Bob Stump National Defense
Authorization Act for Fiscal Year 2003," requires that the Department of Defense
Inspector General perform periodic audits to identify potentially fraudulent, improper,
and abusive uses of purchase cards.
Results. We applied business rules to determine high-risk transactions from the 205
cardholders at NORADKJS NORTHCOM and found that 29 had transactions that
indicated possible misuse. The 29 cardholders conducted 3,960 transactions that
included:
        440 transactions with insufficient docun~entation,
        80 improper uses of the purchase card,
        33 unauthorized transactions, and
        5 abusive uses of the purchase card.
The 21st Contracting Squadron did not provide effective oversight, and NORADIUS
NORTHCOM personnel did not follow Air Force guidance or institute effective
procedures and internal control over the purchase card program. We considered the lack
of internal controls at the 21'' Contracting Squadron to be a material internal control
weakness. To minimize fraud, waste, and abuse, NORADIUS NORTHCOM, the
agencylorganization program coordinator, and approving officials must take action to
establish required internal controls (finding A).
The Command Staff Protocol Administrative Office did not institute proper procedures in
expending Official Representation Funds. As a result, there were 16 events witli
undocumented and questionable benefits to the mission of NORADIUS NORTHCOM,
12 unauthorized transactions, and 19 abusive transactions for excessive amounts of
alcohol. Cardholders were not properly monitored and specific guidance on alcoliolic
expenditures and hosting events was unclear, resulting in broad inteipretations of
allowable events. NORADIUS NORTHCOM will remain vulnerable to questionable use
of Official Representation Funds, unauthorized purchases, and abusive spending on
alcoholic beverages unless internal controls are strengthened and definitive policy is
issued (finding B).
Management Comments and Audit Respoilse. The Chief of Staff of NORAD/US
NORTHCOM concurred witli the recommendations except the recommendation to
suspend use of Official Representation Funds until adequate controls have been
established to prevent misuse. The Chief of Staff stated that NORADlUS NORTHCOM
has already changed key areas of leadership and greatly improved the process and
developed guidance on management of Official Representation Funds. Management
comments were generally responsive, except for the statement that they will "consider"
adding a critical element to appropriate positions on the first recommendation. We do not
agree that considering the addition of a critical element adequately addresses the
recommendation. No comments were received from 21" Contracting Squadron. We
received comments from the Assistai~tSecretary of the Air Force (Acquisition)
concurring with the findings and recommendations. She stated that the Air Force
Program Coordinator will ensure appropriate actions are taken with respect to the
findings in the report. However, the comments were received too late to be discussed or
included in our report, and did not show specific actions to be taken in regard to the
recommendations addressed to the 21'' Contracting Squadron. We request that
NORADlUS NORTHCOM and the 21" Contracting Squadron provide comments on the
final report by October 30,2006. See Finding sections for a discussion of the
management comments and the Management Comments section of the report for the
complete text of the conlments.
Table of Contents

Executive Summary                                                  i

Background                                                         1

Objectives                                                         1

Review of Internal Control                                         1

Findings

     A. Use of and Controls over Government Purchase Cards         3
     B. Official Representation Fund Transactions                 11

Appendixes
     A.    Scope and Methodology                                  18
     B.    Prior Coverage                                         19
     C.    Purchase Card Irregularities by Component              21
     D.    Report Distribution                                    22

Management Comments
     North American Aerospace Defense Command and United States
          Northern Command                                        25
Background
     The North American Aerospace Defense Command (NORAD) mission is to provide
     continuous worldwide detection, validation, and warning of potential aerospace attacks
     on North America and maintain continental aerospace control. The NORAD commander
     is appointed by, and reports directly to, the United States President and the Canadian
     Prime Minister.

     United States Northern Command (US NORTHCOM) conducts operations to deter,
     prevent, and defeat threats and aggression aimed at the United States and its territories
     and interests. If directed by the President or Secretary of Defense, US NORTHCOM
     provides military assistance to civil authorities when required. Both NORAD and US
     NORTHCOM are headquartered at Peterson Air Force Base in Colorado Springs,
     Colorado. The US NORTHCOM commander also commands NORAD, and many of the
     staff also occupy the same positions in both commands.

     The Government purchase card (GPC) is the primary payment and procurement method
     for NORAD/US NORTHCOM for purchases under $2,500. NORAD/US NORTHCOM
     personnel expended $5.17 million during October 1, 2003, through March 31, 2005,
     using the GPC. Individual transaction oversight is provided at each Service installation
     by the agency/organization program coordinator (A/OPC), approving official, and
     cardholder. Personnel assigned to these roles are responsible for providing reasonable
     assurance that purchase card transactions are appropriate and meet a valid Government
     need. The Purchase Card Program at NORAD/US NORTHCOM is administered by the
     21st Contracting Squadron, which includes the A/OPC. The A/OPC is responsible for the
     oversight of the Purchase Card Program for NORAD/US NORTHCOM at Peterson Air
     Force Base, Colorado Springs, Colorado.


Objectives
     The audit objectives were to determine whether NORAD/US NORTHCOM personnel
     were using and managing their GPC Program in accordance with applicable regulations,
     policies, and procedures. We also reviewed the adequacy of the Managers’ Internal
     Control Program as it relates to our audit objectives. See Appendix A for a discussion of
     the audit scope and methodology. See Appendix B for prior audit coverage.


Review of Internal Control
     DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and DoD
     Instruction 5010.40, “Management Control Program Procedures,” August 28, 1996,
     require DoD organizations to implement a comprehensive system of management




                                                 1
controls that provides reasonable assurance that programs are operating as intended and
to evaluate the adequacy of the controls. 1

Scope of the Managers’ Internal Control Program Review. We reviewed the
adequacy of the Managers’ Internal Control Program as it relates to the GPC program.
Specifically, we determined whether 21st Contracting Squadron implemented internal
controls for Government purchase card use. We also reviewed management’s self-
evaluation of required internal controls.

Adequacy of Internal Controls. We identified material internal control weaknesses in
the Government Purchase Card Program managed by the 21st Contracting Squadron. The
deficiencies are detailed in finding A. Implementation of audit report recommendations
will correct the weaknesses identified in the report. A copy of the report will be provided
to 21st Contracting Squadron.

Adequacy of Management’s Self Evaluation. During FY 2005, 21st Contracting
Squadron conducted an ongoing review of the management controls for the GPC
program. No material weaknesses were reported in the May 25, 2005, assurance
statement that states: “The results of this assessment provide reasonable assurance that
this organization maintains the controls necessary to support our program and mission
responsibilities.”

Although no material weaknesses were recognized in 21st Contracting Squadron’s
management control evaluation, our audit identified several internal control weaknesses.




1
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on January
    4, 2006. The cancellation and revision had no impact on the audit findings.



                                                     2
                        A. Use of and Controls over Government
                           Purchase Cards
                        We applied business rules to determine high-risk transactions (See
                        Appendix A) from the 205 cardholders at NORAD/US NORTHCOM and
                        found that 29 had transactions that indicated possible misuse. The
                        29 cardholders conducted 3,960 transactions and we identified:

                             •   440 transactions with insufficient documentation,

                             •   80 improper uses of the purchase card,

                             •   33 unauthorized transactions, and

                             •   5 abusive uses of the purchase card.

                    These irregularities occurred because NORAD/US NORTHCOM did not
                    follow Air Force guidance or institute effective procedures and internal
                    controls over the GPC Program, and the 21st Contracting Squadron did not
                    provide effective oversight of the program. Unless the overall purchase card
                    control environment is strengthened and management engages in proactive
                    oversight, NORAD/US NORTHCOM cannot ensure continuous program
                    monitoring necessary to effectively minimize improper, unauthorized, and
                    abusive transactions.


Criteria
     DoD Guidance. “Department of Defense Government Charge Card Guidebook for
     Establishing and Managing Purchase, Travel, and Fuel Card Programs,” January 20,
     2006, was published to help DoD personnel establish and manage charge card programs.
     Although this guidance was published after the GPC transactions in the audit report took
     place, the guide neither supersedes nor takes precedence over more restrictive
     Component procedures and does not change the conclusions in the report. Rather, it is
     designed to provide additional guidance for the establishment and management of card
     programs.

     Air Force Instruction (AFI) 64-117. AFI 64-117, “Air Force Government-Wide
     Purchase Card (GPC) Program,” January 31, 2006, 2 provides guidance on the use of the
     GPC. The GPC may be used to purchase authorized supplies, equipment, and non-
     personal services up to the micro-purchase threshold of $2,500. Purchases over the
     $2,500 threshold require authorization by a contracting officer. The GPC cannot be used
     to purchase such items as utility services and items for personal use. Additionally, the
     GPC cannot be used in making recurrent buys that circumvent the $2,500 threshold. The
     Air Force requires a distinct separation of duties for purchase, acceptance, and payment
     on all contract actions. Internal controls are established through general policies and
     procedures for program management that includes review and surveillance

     2
         Air Force Instruction 64-117 was modified on January 31, 2006, superseding AFI 64-117, dated
         December 6, 2002. The revised instruction did not include major changes, which would have altered the
         conclusions in this report.



                                                          3
    responsibilities. Supporting documentation for purchases must be retained by the
    cardholder and approving official for 3 years after final payment.

    The AFI also states that approving officials are responsible for individual cardholder
    oversight, ensuring that internal controls—such as testing purchase validity and
    regulation compliance—are implemented. The AFI also requires approving officials to
    conduct reviews of 100 percent of cardholder files at least every 12 months. The
    approving official is also required to verify the monthly account statement. All
    transactions and significant events must be clearly documented and available for
    examination. In addition, all documentation and records must be properly managed and
    maintained.

    The A/OPC is responsible for the operation and overall implementation of the purchase
    card program. The A/OPC responsibilities include providing mandatory purchase card
    training, surveillance, and business advice for cardholders and approving officials.
    Cardholders and approving officials must have at least a 4-hour initial training session
    followed by an annual training update. Surveillance will be accomplished by the A/OPC
    on each approving official at least every 12 months. In addition, the A/OPC must
    document violations and take immediate action to resolve all noncompliance issues.


Government Purchase Card Irregularities
    We reviewed the transactions of cardholders at the 10 NORAD/US NORTHCOM
    Components using business rules to determine high-risk transactions. Twenty-nine
    had irregularities totaling $496,981. 3 Irregularities include purchases lacking supporting
    documentation and improper, unauthorized, and abusive purchases as shown in the
    following table. The table in Appendix C shows a further breakdown of the number of
    transaction irregularities by each of the 10 Components.

    The Government Accountability Office’s Purchase Card Audit Guide uses the following
    definitions when describing misuse of GPCs.

           •    An improper purchase is one that is for Government use, but is not permitted by
                law, regulation, or organizational policy.

           •    An unauthorized purchase is use of the GPC to acquire goods or services that are
                unauthorized and intended for personal use or gain 4 .
           •    An abusive purchase is a purchase of authorized goods or services that are
                excessive or for a questionable Government need, or both.




    3
        Of the $496,981 transaction irregularities in the table, $27,607 had more than one deficiency.
    4
        The Purchase Card Audit Guide uses the term fraudulent purchases. This report uses the more narrow
        unauthorized purchases portion of the definition by excluding the phrase “…constitute a fraud against the
        government.” Page 25 of the Audit Guide requires “…referral to investigative authorities in cases of
        suspected fraud.” Any transactions involving possible fraud are referred to investigators.



                                                            4
                NORAD/US NORTHCOM GPC Transaction irregularities
                        Number of
                                           Amount                    Description
                       Transactions
 Missing or
                                                        Transactions without or incomplete
 Insufficient                440           $310,423
                                                        documentation.
 Documentation
                                                        Computers, visual equipment, purchases
 Improper
                              80            147,538     exceeding $2,500 threshold, and split
 Purchases
                                                        purchases.
 Unauthorized                                           Televisions, cable bills, and Palm
                              33             29,293
 Purchases                                              Pilots.
                                                        Janitorial services including $910 at
 Abusive Purchases             5              9,727
                                                        $65 per hour to clean glass table tops.
  Total                     558            $496,981



Purchase Card Documentation. Supporting documentation for 440 transactions
totaling $310,423 was missing from the files of the approving officials for 7 of the 10
Components reviewed. For example:

   •      Two approving officials in the J2 and J6 Components could not locate any
          documentation for 382 GPC transactions totaling $215,383 from five former
          cardholders. Cardholders made these purchases from merchants such as Best
          Buy, Comp USA, Dell Computer, and Verizon.

   •      In the J8 Component, a purchase for 50 mid-back chairs costing $493.68 each
          (total cost of $24,684) was approved by the approving official. However, the
          total cost was written on the purchase approval form, and no invoice was on hand.
          The cardholder told us that he did not know he was required to obtain and
          maintain an invoice.

   •      The Joint Task Force-North Component did not provide receipts for $40,869 in
          hotel room expenses.

AFI 64-117 requires that the approving official retain supporting documentation on
former cardholders for at least 3 years. Maintaining documentation is essential to ensure
that an adequate audit trail exists.

Improper Purchases. AFI 64-117 requires authorization from the base visual
information manager before purchasing visual information products. However,
cardholders in the Command Staff, Command Protocol, and Cheyenne Mountain
Operations Center circumvented this required internal control by purchasing visual
equipment, totaling $8,204, without the required authorization.

Eight of ten Components lacked pre-authorization for purchases over the $2,500
threshold amount. AFI 64-117 requires that all GPC purchases exceeding $2,500 be
reviewed by the A/OPC. However, 12 cardholders made purchases exceeding $2,500
without obtaining required approval. For example, a cardholder in the Cheyenne
Mountain Operations Center did not obtain required approval for the purchase of two
document shredders for $7,529.



                                              5
     In addition, seven cardholders in five of ten Components split 11 purchases into
     58 transactions to circumvent the established $2,500 micro-purchase limit. For example:

        •   A cardholder in the Cheyenne Mountain Operations Center made four clothing
            purchases exceeding $8,411 from a single vendor. The cardholder was aware of
            the single purchase limit because the purchases were made on the same day,
            approximately 2 minutes apart.

        •   A cardholder from the Command Staff split a purchase for painting services at
            $32 per hour totaling $3,418 into three transactions. The approving official
            approved payment after receiving a note from the cardholder stating the purchase
            was deliberately split to avoid the $2,500 micro-purchase limit.

     Unauthorized Purchases. AFI 64-117 does not permit the use of a GPC to pay cable
     television services and recurring purchases that exceed $2,500 annually. However, a
     cardholder in the J-6 Component used a GPC to pay monthly cable bills for NORAD/US
     NORTHCOM totaling $19,577 for the 18-month period reviewed.

     Furthermore, four cardholders at the Cheyenne Mountain Operations Center purchased
     five televisions, totaling $7,199, including two 42" plasma screens totaling $5,370.
     According to the approving official, an inventory listing with serial number does not
     exist. We were unable to verify the government use and location of the televisions.

     Abusive Purchases. A NORAD/US NORTHCOM staff member used a GPC to pay
     $910 for services to clean glass on conference room tables. A company specializing in
     high-rise window cleaning was hired for $65 per hour to clean the table glass. The staff
     member hired this company despite the fact that this service is already covered in the
     existing janitorial contract.


Lack of Internal Controls
     Factors that contributed to the internal control weaknesses throughout the GPC Program
     included:
        •   inadequate training,

        •   uninvolved and unmotivated approving officials, and

        •   ineffective and inconsistent surveillances.

     Training. The initial training provided by the A/OPC to new cardholders and approving
     officials is inadequate. During the audit, we attended a 4-hour classroom training
     required for new cardholders and considered the course insufficient. Specifically, 3
     hours and 15 minutes were spent on 17 topics covering the regulations governing the
     GPC program; however, 45 minutes was spent discussing the purchase of
     environmentally friendly items.

     In addition to the initial training, the A/OPC is responsible for providing refresher
     training to all approving officials and cardholders on an annual basis. In an attempt to
     meet this requirement, the A/OPC posts a monthly newsletter on the website and e-mails
     the letter to approving officials for distribution to cardholders. However, 4 of 28


                                                 6
cardholders surveyed stated they were unaware of the newsletter. Delegating the
responsibility of cardholder refresher training to the approving officials was not effective
and did not comply with AFI 64-117.

Approving Officials. Use of approving officials should be an important facet of the
internal control program in identifying and reporting cardholder misuse. However, two
cardholders from the J-5 and J-8 Components conducted annual inspections of their own
transactions. During an interview, the J-5 Component cardholder admitted to completing
the surveillance checklist for the approving official, thereby undermining the segregation
of duties control. Furthermore, approving officials from multiple Components approved
transactions without supporting documentation. These examples demonstrate that some
of the approving officials are not fulfilling their role in the internal controls of the
purchase card program.

AFI 64-117 requires approving officials to maintain GPC documentation for cardholders
whose accounts have been closed because they have been reassigned, transferred, or
retired. However, as previously stated, two approving officials from the J-2 and J-6
Components had no purchase documentation for 382 transactions from 5 cardholders,
totaling $215,383.

Approving officials’ duties for the GPC program are critical to the success of internal
controls, but these duties are not a critical element in evaluating their performance.
Approving officials are likely to be more conscientious when reviewing cardholder
transactions if such responsibilities affect their performance rating.

Surveillance. At the 21st Contracting Squadron, the A/OPC, the surveillance manager,
and the assistant A/OPC provided GPC program oversight to the approving officials and
cardholders of NORAD/US NORTHCOM. Surveillance is the backbone of the internal
controls for the GPC program. However, the surveillance manager conducted
inconsistent and inadequate surveillances, and did not always detect deficiencies found
during surveillances. In addition, surveillance was not conducted for 4 of the 18 months
included in the scope of the audit.

The A/OPC used a checklist for guidance in conducting surveillances. The checklist was
completed and attached to a memorandum providing a summary of the surveillance. We
identified instances where the memorandums and checklists did not correlate. For
example, the A/OPC noted two discrepancies on a surveillance memorandum; however,
surveillance checklists included no discrepancies. Completed checklists did not
document the specific transactions reviewed or the time period for which the review was
conducted. In addition, the checklist did not identify the cardholder being reviewed.
During our interview, the A/OPC commented that surveillances were conducted every
12 months, but he could not explain which or how many transactions were reviewed
because this information was not incorporated into the checklist. The checklists would
be more effective if they included the cardholder name, period of review, or transactions
reviewed.

The A/OPC did not detect a segregation of duties breach in two instances where
cardholders performed the approving officials’ duties. Both of the segregation of duties
deficiencies went undetected despite the fact that self-inspection was clearly indicated on
the checklists. The inability of the A/OPC to adequately complete the surveillance
process is a breakdown in internal controls, leaving NORAD/US NORTHCOM
vulnerable to fraud, waste, and abuse.



                                             7
    Surveillances were suspended for 4 months during the 18-month period we reviewed
    because the surveillance manager position was vacant. The A/OPC is a temporary GS-11
    position not to exceed 1 year. During the vacancy, surveillances were not performed, and
    the indefinite suspension was announced via e-mail.


Conclusion
    Cardholders made unacceptable purchases. Approving officials who were required to
    monitor these purchases approved them without adequate scrutiny. The A/OPC task is to
    train the cardholders and approving officials, and to conduct surveillances to verify that
    procedures are implemented effectively. However, the approving officials’ lack of
    involvement combined with the ineffective training and surveillances resulted in a
    breakdown of internal controls for the GPC program at NORAD/US NORTHCOM.

Management Comments on the Finding and Audit Response
    Management Comments. NORAD/US NORTHCOM partially concurred with the
    finding regarding improper purchases, and stated that lack of documentation suggested
    improper purchases may have occurred, but cardholders who are still present in the
    Command stated that they did get some type of authorization prior to making purchases,
    but failed to document the approval properly. Management further stated that in rare
    instances, split purchases might be necessary when conducting operations.

    Audit Response. The purchases shown in the report were improper because the
    cardholders did not get the required authorization or cardholders split purchases into
    multiple transactions to circumvent the $2,500 limit for micro-purchases shown in AFI
    64-117. We are not aware of any circumstances that would allow cardholders to
    intentionally circumvent the required approval for purchases for more than the $2,500
    threshold by splitting large purchases to ensure each transaction is below the $2,500
    limit. AFI 64-117 allows purchases in excess of the $2,500 limit when properly
    authorized. We hope that the recommendations to the 21st Contracting Squadron to
    establish standard operating procedures and improve surveillance will ensure that
    NORAD/US NORTHCOM personnel do not circumvent established internal controls
    under the guise of operational requirements.
    Management Comments. NORAD/US NORTHCOM disagreed that cleaning table tops
    was already included in an existing contract. Management stated that the cleaning of
    conference room tables was not covered in the existing janitorial contract.

    Audit Response. Our discussions with both the Contracting Officer and the Quality
    Assurance Evaluator for janitorial services on March 22, 2006, indicated that cleaning
    glass fixtures, including table surfaces, was included in the contract for janitorial
    services.




                                                8
Recommendations, Management Comments, and Audit Response
    A.1. We recommend that the Commander of North American Aerospace Defense
    Command and United States Northern Command:

          a. Modify the position descriptions of approving officials for the Purchase
    Card Program to include a critical element to reflect responsibilities associated with
    the program.

    Management Comments. NORAD/US NORTHCOM concurred, stating that the
    recommendation could be applicable to civilian positions, but needs an adequate parallel
    for military personnel holding the responsibility. Management will look for an
    appropriate tool to provide that parallel and will consider adding this critical element to
    appropriate positions.

    Audit Response. The NORAD/US NORTHCOM comments were nonresponsive. We
    do not agree that considering the addition of a critical element adequately addresses the
    recommendation. The intent of the recommendation is to raise the profile of the
    approving official’s duties, military or civilian. A firm commitment and an expected
    completion date for implementing the recommendation would be responsive.

         b. Take disciplinary action against cardholders and approving officials who
    do not follow the requirements in Air Force Instruction 64-117.

    Management Comments. NORAD/US NORTHCOM concurred, and will, on a case-
    by-case basis, determine the spectrum of appropriate corrective actions after considering
    the chain of command and Staff Judge Advocate recommendations.

    A.2. We recommend that the Commander of the 21st Contracting Squadron:

          a. Prepare and disseminate a written standard operating procedure providing
    specific guidance for cardholders, approving officials, and the agency/organization
    program coordinator and the subordinate staff. The standard operating procedure
    should as a minimum:

                  (1) Amplify the requirements found in Air Force Instruction 64-117
    to help ensure that oversight is performed and documented as required by the
    Instruction. For example, the standard operating procedures should summarize
    when authorizations are required before purchases are made.

                 (2) Extend the current 4-hour initial training requirement for new
    cardholders and approving officials to allow enough time to adequately cover all the
    required areas.

                  (3) Require that effective refresher training of purchase cardholders
    and approving officials is conducted. Such training could include sending
    informational e-mails directly to cardholders, annual 2-hour classes tailored to
    approving officials or cardholders, and special training for cardholders and
    approving officials that have deficiencies, based on surveillances.




                                                 9
             (4) Require approving officials to transfer all documentation
supporting purchase card transactions to the agency/organization program
coordinator upon transfer or reassignment to ensure the availability of
documentation for oversight and audit.

     b. Revise position descriptions for the agency/organization program
coordinator, surveillance manager, and assistant surveillance manager, making
them commensurate with responsibilities and authority.

      c. Establish procedures that will minimize any gaps in the appointment of
surveillance managers of the Purchase Card Program.

Management Comments. The 21st Contracting Squadron did not comment on the draft
report. The Assistant Secretary of the Air Force (Acquisition) provided comments
concurring with the findings and recommendations. She stated that the Air Force
Program Coordinator will ensure appropriate actions are taken with respect to the
findings in the report. However, the comments were received too late to be discussed or
included in our report, and did not show specific actions to be taken in regard to the
recommendations addressed to the 21st Contracting Squadron. We request that the 21st
Contracting Squadron provide comments on the final report.




                                          10
                    B. Official Representation Fund
                       Transactions
                     The Command Staff Protocol Administrative Office did not institute
                     proper procedures to prevent questionable and unsupported use of
                     Official Representation Funds (ORF). Specifically, events were hosted
                     without documenting the benefits to the Government, and unauthorized
                     transactions occurred. Also, excessive costs were incurred at restaurants,
                     or excessive amounts of alcoholic beverages were purchased for Quarters
                     One Dinners. These conditions occurred because cardholders were not
                     properly monitored by the Command Staff Protocol Administrative
                     Office, and specific guidance on alcoholic expenditures and hosting
                     events was unclear. NORAD/US NORTHCOM will remain vulnerable
                     to questionable use of appropriated funds, unauthorized purchases of
                     personal items, and abusive spending on alcoholic beverages unless use is
                     strictly monitored, and specific guidance is provided.


Regulatory Guidance on Use of Official Representation Funds
     As a general rule, GPC use for entertainment purposes is unauthorized; however,
     exceptions are permitted when spending appropriated contingency funds for official
     representation purposes. Congress appropriated ORF to host official receptions, dinners,
     and similar events; and to otherwise extend official courtesies to guests of the United
     States and DoD for the purpose of maintaining the standing and prestige of the United
     States and DoD.

     DoD Directive 7250.13, “Official Representation Funds (ORF),” February 17, 2004,
     updated January 12, 2005, requires that the use of ORF be monitored personally by the
     commanding officer to ensure that expenditures are of the highest order of propriety and
     integrity. Furthermore, events are to be modest in nature and comply with the socially
     acceptable mores of American society while serving the objectives of the United States
     and the interests of the U.S. taxpayer. The Directive allows official courtesies to be
     offered to visiting foreign dignitaries and officials, and Federal, State, and local
     dignitaries who have made a substantial contribution to the nation or to the Department
     of Defense.

     Chairman of the Joint Chiefs of Staff Instruction 7201.01A, “Combatant Commanders’
     Official Representation Funds,” October 15, 2003, requires the commanding officer (or
     authorized designee), Command Protocol Officer, the Command Comptroller, and the
     Command Judge Advocate to review each event that uses ORF prior to its occurrence.
     To meet this requirement, NORAD/US NORTHCOM circulated a staff summary sheet
     for review and approval by each of the authorizing officials prior to the event. At a
     minimum, the staff summary sheet is required to include detailed event information,
     including date, location, attendees, total cost estimate, and a stated justification for the
     event.




                                                   11
Command Staff Protocol Administrative Office
     The Command Staff Protocol Administrative Office administers and monitors the ORF
     purchase card. The NORAD/US NORTHCOM had an annual budget of $66,400 for the
     ORF for FY 2004 and $42,614 for FY 2005. The staff directly involved in the
     administration of ORF is the cardholder (Command Protocol Specialist), the approving
     official (Deputy Director, Command Protocol), and the Director, Command Protocol.
     The Command Protocol Specialist creates the staff summary sheet after notification that
     an event is to take place and makes many of the purchases for the event. The approving
     official reviews and approves valid purchases made by the cardholder. The Director of
     the Command Protocol Office supervises the preparation of the staff summary sheet.


Use of Official Representation Funds
     Because of the unique and discretionary use of ORF, we reviewed each of the 202 GPC
     transactions and the 54 ORF events hosted from October 1, 2003, to March 31, 2005.
     We identified:

           •    16 questionable events;

           •    12 unauthorized transactions for beer, groceries, and other expenses; and

           •    19 abusive transactions for excessive amounts of alcoholic beverages.

     The use of ORF was authorized without adequate review of event justification. The
     Command Comptroller, the Command Judge Advocate, and the Command Protocol
     Officer authorized ORF spending based upon the staff summary sheet description rather
     than the event’s compliance with DoD policy. Without proper scrutiny by authorizing
     officials, funds appropriated for entertaining visiting dignitaries were used to provide
     meals and excessive amounts of alcoholic beverages to local civilians and military
     personnel. As documented in this report, the staff summary sheet reviews were
     inadequate because of the events that were authorized.

     Questionable Events. NORAD/US NORTHCOM hosted events that appeared to be
     mainly for the entertainment and benefit of DoD personnel. The Command Protocol
     Officer, the Command Comptroller, and the Command Judge Advocate authorized each
     event even though the events lacked adequate supporting documentation.
     For example, NORAD/US NORTHCOM and Air Force Space Command hosted a
     “Holiday Reception” for 250+ retired military officers that totaled $4,717 on Saturday,
     December 13, 2003. The Command Staff Protocol Administrative Office requested
     authorization for the reception by e-mail on Friday, December 12, 2003, after authorizing
     officials had gone home for the day. Unable to review the request prior to the event, the
     Command Comptroller and the Command Judge Advocate 5 provided authorization for
     the Saturday holiday reception on Monday, December 15, 2003.


     5
         An e-mail from the Chief Administrative Law Division, Judge Advocate’s office to the NORAD/US
         NORTHCOM Protocol Officer stated there was nothing in the approval request to justify expenditure of
         ORF. However, the staff summary sheet indicated approval by the Office of the Judge Advocate.



                                                         12
NORAD/US NORTHCOM and Air Force Space Command also hosted a holiday
reception that totaled $5,000 on December 18, 2004, with numerous beer and wine
selections. The guest list comprised approximately 330 NORAD/US NORTHCOM and
Air Force Space Command officers along with 375 “honored” guests that included local
ranchers, attorneys, and business owners in the community.

In addition, the Commander, NORAD/US NORTHCOM, hosted 14 Quarters One
Dinners costing a total of $7,144 honoring senior staff members and “honored guests.”
However, the staff summary sheets did not show the specific organizations and titles for
the guests, the benefits toward mission accomplishment, or how the guests contributed to
the nation or DoD. For example:

       •   A dinner on November 8, 2003, was approved for “several civic leaders” at a cost
           of $306.07, but no documentation was available to show which individuals
           attended the dinner. 6

       •   Another dinner was approved to honor the Deputy Commander of US
           NORTHCOM on August 5, 2004. E-mail correspondence documents personnel
           from the Protocol Office searching for “civic leaders” to attend the dinner. One
           e-mail stated “If they accept, I’ll have the proper ratio to ORF this dinner…” 7
           Protocol Office explained to us that the dinner was an opportunity to introduce
           the Deputy Commander to the local civic leaders of Colorado Springs; however,
           only two civic leaders, accompanied by their spouses, attended.

DoD Directive 7250.13, Enclosure 1, does not permit ORF to be spent on events
honoring staff members. In addition, Chairman of the Joint Chiefs of Staff Instruction
7201.01A requires documentation identifying the benefits toward mission
accomplishment as well the name, title, and organization represented for each visitor
being hosted. Based on our review of available documentation, civic leaders appeared to
be invited to ensure that a proper ratio of Government to non-Government personnel
were present.

Unauthorized Purchases. Chairman of the Joint Chiefs of Staff policy permits ORF use
only for official events that are hosted and attended by a combatant command general or
flag officer. ORF expenditures for personal use are not permitted. However, a command
protocol specialist used the ORF GPC for unauthorized purchases on numerous
occasions. For example:
       •   A command protocol specialist used the ORF GPC to charge $1,104 for alcoholic
           beverages, meals, and green fees during a trip to Las Vegas, Nevada, and Nellis
           Air Force Base by the Commanding General and ten civic leaders. However,
           there was no staff summary sheet or approval for these purchases as an official
           representation event.

       •   A command protocol specialist purchased 2 ½ cases of beer at an off-base liquor
           store and groceries totaling $297. Receipts were attached to staff summary
           sheets, and the costs were included under official representation events. The

6
    In May 2006, 6 months after field work was completed on the audit, the Protocol Office finally provided
    a list of personnel that had been invited to the event.
7
    DoD Directive 7250.13 states that “In parties of fewer than 30 persons, a minimum of approximately
    20 percent of invitees expected to attend should be honored or distinguished guests and members of their
    party.”



                                                      13
          protocol specialist did not normally purchase beverages and groceries, nor was it
          customary for alcoholic beverages to be purchased off-base; although the
          purchases were approved by the approving official, she was unaware of the
          transactions and could not justify the purchases.

      •   On one occasion, a command protocol specialist purchased grocery items such as
          Gorton’s Fish, Hot Pockets, and Gummi Bears. The receipts for the purchases
          were attached to staff summary sheets for official representation events.

The approving official for ORF did not actively participate in the management and
oversight of cardholder activity, and did not reconcile GPC receipts for ORF events
resulting in payment approval for unauthorized purchases.

Abusive Purchases. 8 Nineteen GPC transactions for 14 events using ORF include
excessive costs at restaurants or excessive amounts of alcoholic beverages at Quarters
One Dinners. DoD policy permits installation commanders to use ORF to entertain on a
modest basis. However, we reviewed eight events held at public restaurants, totaling
$7,624 to entertain 28 “honored guests” and 69 DoD personnel, and found:

      •   Two events where the total cost exceeded $100 per person,

      •   three events where alcoholic beverage costs exceed $40 per person, and

      •   six events where alcoholic beverage costs totaled approximately 50 percent of the
          entire meal cost.

For example, a staff summary sheet showed entertaining nine “honored guests” from the
“Defense Commission Members Chamber of Deputies, Mexico,” and nine DoD
personnel for dinner at a local upscale restaurant. The cost of the event was $2,182
(more than $120 per person), which included $1,150, or 53 percent, for alcoholic
beverages (more than $63 per person), clearly exceeding the GAO benchmark.

In addition, we found 13 GPC transactions totaling $3,565, involving excessive alcoholic
beverage purchases for Quarters One Dinners. The dinner is an official representation
event where the commanding officer hosts a dinner for visiting dignitaries at his quarters.
House aides purchase groceries and alcoholic beverages and prepare event meals. For
example, a Quarters One Dinner entertaining four local civic leaders and six DoD
personnel included purchases of alcohol equating to approximately 245 ounces of spirits
and 36 cans of beer, or more than 28 drinks per individual.
NORAD/US NORTHCOM did not have specific guidance for ORF entertainment
expenditures resulting in a wide range of directive interpretation. Command personnel
interpreted guidelines such as “modest in nature” and “socially acceptable mores of
American society” in a manner that accommodated the entertainment desires of the
command. However, any justification for consuming an average of more than 28 drinks
per individual during dinner as “modest” or “socially acceptable” is dubious.


8
    Government Accountability Office (GAO) report, “Purchase Card Control Weaknesses Leave the Air
    Force Vulnerable to Fraud, Waste, and Abuse,” December 2002, provides a benchmark for waste and
    abuse of $100 per person for dinner and $40 per person for alcoholic beverages.




                                                   14
Conclusion
    ORF were being misused because of the lack of management oversight, the lack of
    proper review by authorizing officials, and the lack of specific guidance. Misuse of ORF
    violates DoD regulations and could violate Federal laws such as the Antideficiency Act.
    Although the ORF regulations allow the use of appropriated funds for alcoholic
    beverages and entertainment, reasonable limitations for event type and cost should be
    instituted. Because of the questionable, unauthorized, and abusive transactions
    documented in this report, and the possibility of these transactions igniting media hype
    effecting resentment and consternation from United States taxpayers, the Commander of
    NORAD/US NORTHCOM should suspend use of these funds until he is satisfied that
    adequate internal controls have been established.


Management Comments on the Finding and Audit Response
    Management Comments. Management nonconcurred that ORF were being misused.
    Although they agreed that a negative perception could be conveyed by the historical lack
    of documentation, internal controls and documentation significantly improved
    immediately following the audit period examined. The current process is functioning
    very well.

    Audit Response. Although NORAD/US NORTHCOM agreed that documentation was
    lacking, the failure to admit any misuse of ORF suggests that they did not take the
    findings in our report seriously. Because our report covered only a specific period of
    time, we do not know how the current process is working.

Recommendations, Management Comments, and Audit Response
    B.1. We recommend that the Commander of North American Aerospace Defense
    Command/United States Northern Command;

           a. Take immediate action to suspend use of Official Representation Funds
    until adequate internal controls have been established to prevent misuse.

    Management Comments. NORAD/US NORTHCOM nonconcurred and stated that the
    audit failed to account for changes and improvements since the audit period examined,
    and suspension would have a negative effect upon critical operations. Several program
    changes and changes of personnel in key positions have taken place, and the J8 has
    developed guidance and instruction on ORF management.

    Audit Response. Although management nonconcurred with the recommendation,
    changing key positions and issuing new guidance appear to satisfy the intent of the
    recommendation.

           b. Require the Comptroller, Judge Advocate, and the Protocol Officer to
    base approval of events using official representation funds based on the guidance in
    Chairman of the Joint Chiefs of Staff Instruction 7201.01A, Appendix B to the
    enclosure.



                                               15
Management Comments. NORAD/US NORTHCOM concurred and stated that
problems in the past have been recognized and corrected and it is now clear to each ORF
representative in the Comptroller, Judge Advocate, and Protocol offices of their
responsibility to ensure every request for ORF meets the requirements of the Instruction.

       c. Provide specific guidance concerning the spending limitations for meals
and alcoholic beverages when using official representation funds.

Management Comments. NORAD/US NORTHCOM concurred and stated that
Command has developed expenditure guidelines that provide a number of considerations
that must be reviewed prior to approval of funds. The policy also provides funding
limitation suggestions on meal and alcohol costs for each event. Specific justification is
required if suggested costs are exceeded.

B.2. We recommend that the Command Staff Protocol Administrative Office;

      a. Ensure that all applicable requirements of DoD Directive 7250.13 and
Chairman of the Joint Chiefs of Staff Instruction 7201.01A are met prior to
approving official representation events.

Management Comments. NORAD/US NORTHCOM concurred and stated that the
Command Protocol Office is not the approving official for ORF. However, the
Commander NORAD/US NORTHCOM has authorized specific individuals to approve
ORF expenditures. The Protocol office will check to ensure that all requests are in
accordance with the guidance in the Joint Chief of Staff Instruction.

Audit Response. The NORAD/US NORTHCOM comments were responsive.
However, it should be noted that there are five signatures in the approval process of an
ORF event, and three of those signatures are from the Command Protocol Office. The
signatures are for the Protocol Director, Deputy Director, and the Protocol Specialist.
Therefore, the Command Protocol Office does have responsibility in approving the use of
ORF.

       b. Document the DoD-wide implications and benefits of the requested
representation event on each staff summary sheet.

Management Comments. NORAD/US NORTHCOM concurred and stated that in the
past, it was assumed that the “Purpose Statement” met the requirement for justifying why
the request was necessary. However, they now provide a clear justification statement for
each request.
       c. Reconcile the total expenditures to the authorized amount immediately
following each official representation event.

Management Comments. NORAD/US NORTHCOM concurred and stated that the
Command Protocol policy now requires that all ORF expenditures be reconciled no later
than 5 days following an event. If more time is required, this must be reported to the
Director and the Protocol ORF manager.




                                            16
B.3. We recommend that the Government Purchase Card approving official for
Official Representation Funds;

        a. Reconcile purchase card transactions with Official Representation Fund
staff summary sheets prior to approving payment to ensure the prevention and
detection of unauthorized purchases by requiring that;

       •   items purchased correspond with the type of event being held,

       •   dates on receipts correspond with the event dates, and

       •   receipt amounts agree with authorized amounts on the staff summary
           sheet with an explanation of all overages.

Management Comments. NORAD/US NORTHCOM concurred and stated that the J8
ORF manager, Command Protocol manager, and the Protocol GPC approving official
meet monthly to review all ORF requests, purchases, and receipts to ensure that
expenditures agree with amounts authorized, and if they do not agree, justification is
provided.

Audit Response. The NORAD/US NORTHCOM comments are responsive. A record
of the monthly meetings should be maintained in the Command Protocol Office of action
items for future reference.

     b. Reject all items purchased unless an official need is documented, and take
appropriate disciplinary action when necessary.

Management Comments. NORAD/US NORCOM concurred and stated that no
“authorized” [sic] purchases will be approved, and appropriate actions will be taken.




                                           17
Appendix A. Scope and Methodology
           We acquired from data mining a universe of 12, 344 purchase card transactions
           valued at $5.17 million made by 205 NORAD/US NORTHCOM cardholders
           during the 18 month period ending March 31, 2005. We applied business rules to
           determine transactions that were high risk based on dollar amount, date of
           purchase, vendor, and other indicators of possible GPC misuse. Applying these
           business rules, the population was reduced to 1,490 1 transactions with a total
           value of $2.51 million. The 1,490 transactions were associated with 46
           cardholders, and after further analysis we determined there were potentially high
           risk transactions associated with 29 of these cardholders. We reviewed all of the
           3,690 transactions associated with the 29 cardholders. We conducted field work
           from June 20, 2005, through October 7, 2005, at Peterson Air Force Base,
           Cheyenne Mountain Operations Center (both are located in Colorado Springs,
           Colorado), and Joint Task Force-North at Fort Bliss, El Paso, Texas. Also, we
           selected transactions and interviewed related approving officials, cardholders,
           contracting personnel and other NORAD/US NORTHCOM employees. In
           addition, we evaluated the Management Control Program to assess effectiveness
           within the GPC Program.

           We also identified and reviewed all 202 purchase card transactions associated
           with 54 official representation events initiated by the Command Staff Protocol
           Administrative Office during October 1, 2003, to March 31, 2005. Transactions
           were selected and the cardholder and approving official were interviewed. We
           also evaluated internal controls at the Command Staff Protocol Administrative
           Office with respect to the ORF to assess effectiveness within the GPC Program.

           We performed this audit from May 2005 through April 2006 in accordance with
           generally accepted government auditing standards.

           Use of Computer-Processed Data. We received computer-processed data for
           NORAD/US NORTHCOM from the DoD Office of Inspector General, Data
           Mining Directorate. During the review, we established reliability by comparing
           the data to source documentation such as receipts, pre-approval, reconciliation,
           purchase waiver, etc. The comparison disclosed that data were sufficient to
           support the conclusions. However, we did not perform any formal reliability
           assessment of the computer-processed data.
           Government Accountability Office High-Risk Area. The GAO has identified
           several high-risk areas in DoD. This report provides coverage of a Defense
           Financial Management high-risk area.




1
    While reviewing these transactions, we found 100 percent of the documentation missing for five
    cardholders. Therefore, we included these transactions in our totals for missing or insufficient
    documentation.



                                                      18
Appendix B. Prior Coverage
      During the last 5 years the GAO, Department of Defense Inspector General, and
      the Air Force Audit Agency have issued 18 reports discussing the Department of
      Defense Purchase Card Program. Unrestricted Government Accountability Office
      reports can be accessed over the Internet at http://www.gao.gov. Unrestricted IG
      DoD reports can be accessed at http://www.dodig.mil/audit/reports.

GAO

      Report No. GAO-04-156, “Purchase Cards: Steps Taken to Improve DoD
      Program Management but Actions Needed to Address Misuse,” December 2004

      Report No. GAO-04-430, “Contract Management: Agencies Can Achieve
      Significant Savings on Purchase Card Buys,” March 2004

      Report No. GAO-03-292, “Purchase Cards: Control Weaknesses Leave the Air
      Force Vulnerable to Fraud, Waste, and Abuse,” December 2002

      Report No. GAO-02-1041, “Purchase Cards: Navy is Vulnerable to Fraud and
      Abuse but is Taking Action to Resolve Control Weaknesses,” September 2002

      Report No. GAO-02-732, “Purchase Cards: Control Weaknesses Leave Army
      Vulnerable to Fraud, Waste, and Abuse,” June 2002

      Report No. GAO-02-506T, “Purchase Cards: Continued Control Weaknesses
      Leave Two Navy Units Vulnerable to Fraud and Abuse,” March 2002

      Report No. GAO-02-32, “Purchase Cards: Control Leave Two Navy Units
      Vulnerable to Fraud and Abuse,” November 2001

DoD Inspector General

      Report No. D-2004-104, “Purchase Card Use and Contracting Action at the U.S.
      Army Corps of Engineers, Louisville District,” July 27, 2004

      Report No. D-2004-096, “Controls Over Purchase Cards at Naval Medical Center
      San Diego,” June 29, 2004
      Report No. D-2004-076-T, “How to Save the Taxpayers Money Through Prudent
      Use of the Purchase Card,” April 28, 2004

      Report No. D-2004-016, “Purchase Card Use at the Space and Naval Warfare
      Systems Command, Information Technology Center, New Orleans, Louisiana,”
      November 14, 2003




                                         19
      Report No. D-2004-002, “Selected Purchase Card Transactions at Washington
      Headquarters Services and Civilian Personnel Management Service,” October 16, 2003

      Report No. D-2003-109, “Summary Report on the Joint Review of Selected DoD
      Purchase Card Transactions, June 27, 2003

      Report No. D-002-075, “Controls Over the DoD Purchase Card Program,” March 29,
      2002

      Report No. D-2002029, “Summary Report: DoD Purchase Card Program Audit
      Coverage,” December 27, 2001

Air Force Audit Agency

      Air Force Report No. F2003-0002-FC3000, “Memorandum Report: Joint Purchase Card
      Project,” December 2, 2002
      Air Force Report No. F2002-0006-C06400, “Air Force Purchase Card Program,”
      August 6, 2002

      Air Force Report No. F2004-0007-FC3000, “Air Force Government Purchase Card
      Internal Controls,” September 9, 2001




                                               20
        Appendix C. Purchase Card Irregularities by
                    Component



                           Missing      Unauthorized    Abusive     Improper
      Component                                                                   Total
                        Documentation    Purchases     Purchases   Transactions
Command Staff                 4                -          5            10          19

Command Protocol              9                -           -            2          11

Legal Advisor                 -                -           -            1          1

Chaplain’s Office             -                -           -            1          1
Cheyenne Mountain
                              1                6           -           12          19
Operations Center
Standing Joint Forces
                             41                -           -           37          78
HQ North
J-2 Intelligence             11                -           -           11          22

J-4 Logistics                 -                -           -            1          1
J-6 Architectures &
                             371               27          -            5         403
Integration
J-8 Programs &
                              3                -           -            -          3
Resources
Total Transactions           440               33         5            80         558




                                          21
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, 21st Space Wing
  Commander, 21st Contracting Squadron

Combatant Commands
Commander, North American Aerospace Defense Command and United States
  Northern Command

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
   on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
   Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
and the Census, Committee on Government Reform




                                        23
North American Aerospace Defense Command and
United States Northern Command Comments




                      25
26
27
28
29
30
31
32
33
34
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Marvin L. Peek
Crystal A. Miller
Ben J. Meade
Greg Abrahamson
Jenny M. Brenner
Matthew Purkiss
Ann Thompson
Pamela S. Varner
